Executive Summary



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the McRae, Arkansas Police Department
GR-80-01-003	
November 7, 2000 
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the McRae, Arkansas Police Department.  The purpose of the grants is to enhance community policing.  The police department was awarded grants totaling $166,451 to hire two full-time and two part-time officers, and to train a veteran who has been hired with a COPS hiring grant to perform community oriented policing.

We found the McRae Police Department to be in material noncompliance with COPS' grant requirements.  We reviewed the police department's compliance with grant conditions for budgeting, hiring, local matching funds, reimbursement requests, retention efforts, community policing activities, and grantee reporting.  We found weaknesses in each of the areas we tested.  As a result, we question $116,187 in grant funds received and recommend $50,264 be withheld as funds to better use. 1

The police department violated the COPS Office's non-supplanting requirement by budgeting for a decrease in its local law enforcement budget, not maintaining the required number of additional police officers, and using COPS funds to pay for an officer previously paid for with local funds.  In our judgment, these decreases were related to the grantee's receipt of COPS funding.

	The police department failed to meet its local match requirement because it was reimbursed for more than its allowable federal share.  Further, the police department could not demonstrate that matching funds were from funds not previously budgeted for law enforcement.

	Reimbursement requests under the Troops to COPS Program contained unsupported and unallowable costs.

	The police department did not retain the two officer positions hired under the FAST and UHP I awards and we are concerned that the positions funded by the UHP II award will also not be retained.

	The police department did not enhance community policing by the number of  sworn officers funded by the grants.

	Financial Status Reports were not always accurate or submitted timely.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.